I

I

NONPRECEDENTIAL DISPOSITION
To be cited only in accordance with Fed. R. App. P. 32.1

Untiefc jifate Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted October 23,2019
Decided November 19,2019
Before
WILLIAM J. BAUER, Circuit Judge
MICHAEL S. KANNE, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
No. 18-3431
UNITED STATES OF AMERICA,
. Plain tiff-Appellee,

v.
DERRICK T. NEVILLE, JR.,
Defendan t-Appellan t.

Appeal from the United States District
Court for the Northern District of Illinois,
Western Division.
No. 3:17-cr-50032-l
Frederick J. Kapala,
Judge.
ORDER

Derrick Neville, Jr. pleaded guilty to possessing a controlled substance with
intent to distribute, 21 U.S.C. § 841(a)(1), and being a felon in possession of a firearm, 18
U.S.C. § 922(g)(2), and was sentenced to 186 months in prison under the Armed Career
Criminal Act, 18 U.S.C. § 924(e). He has appealed, but his lawyer asserts that the appeal
is frivolous and moves to withdraw under Anders v. California, 386 U.S. 738, 744 (1967).
Neville opposes the motion using the procedure in Circuit Rule 51(b). Counsel's brief
explains the nature of the case and addresses the issues that an appeal of this kind
might be expected to involve. Because the analysis appears thorough, we limit our

No. 18-3431

Page 2

review to the subjects that counsel and Neville discuss. See United States v. Bey, 748 F.3d
774, 776 (7th Cir. 2014).
Counsel first considers whether Neville could challenge the voluntariness of his
guilty plea. Counsel does not expressly indicate whether he spoke to Neville about
challenging the plea, see United States v. Konczak, 683 F.3d 348,349 (7th Cir. 2012);
United States v. Knox, 287 F.3d 667,670-71 (7th Cir. 2002), and Neville is silent about the
issue in his Rule 51(b) response. But the omissions do not require that we deny the
Anders motion. The transcript of the plea colloquy shows that the district court accepted
the guilty plea only after substantially complying with the requirements of Federal Rule
of Criminal Procedure 11. See Konczak, 683 F.3d at 349. During the colloquy, Neville said
that he understood the nature of the proceeding and the questions he was being asked.
The judge explained to him what rights he was relinquishing by pleading guilty, see
Rule ll(b)(l)(B)-(F), warned him of the consequences of the plea, see Rule 11(b)(1)(H)(N), assured itself that the plea was voluntary, see Rule 11(b)(2), and determined that
the plea had a factual basis. See Rule 11(b)(3). The only omission we see is that the judge
did not inform Neville that non-citizens may be removed from the United States if
convicted, see Rule ll(b)(l)(0), but this omission did not prejudice Neville because he is
a United States citizen. On this record, any argument challenging the voluntariness of
the plea would be frivolous.
Counsel next considers whether Neville could challenge his classification as an
Armed Career Criminal under § 924(e) and appropriately concludes that this argument
would be frivolous because he waived it during the district court's proceedings. A party
waives an argument when he intentionally (as opposed to negligently) chooses not to
raise it. United States v. Waldrip, 859 F.3d 446, 449 (7th Cir. 2017). In his sentencing
memorandum, Neville stated that he expressly agreed with his classification as an
Armed Career Criminal and the Sentencing Guideline calculations set forth in the
presentence report. In that memorandum, he acknowledged that "he was afforded the
right to challenge his classification," but that his "attorney believefd] that after
reviewing [his] criminal history, the PSR and the applicable case law that there [was]
not a good faith basis to challenge his classification." Later, at the sentencing hearing,
Neville's counsel reiterated that he could not "object to or disagree with" the
prosecutor's guideline calculations and agreed that Neville's criminal history "falls with
the case law regarding him being classified as an armed career criminal." By
intentionally relinquishing the opportunity in these two instances to contest his Armed
Career Criminal classification, Neville waived the right to challenge it on appeal. See

No. 18-3431

Page 3

Waldrvp, 859 F.3d at 449. Accordingly, any challenge to the classification—and the
application of the Guidelines—would be frivolous.
In his Rule 51(b) response, however, Neville challenges the classification and
contends that his two convictions under the Illinois Controlled Substances Act, 720ILCS
§ 570/401 (c), are not "serious drug offenses" under the ACCA.
To determine whether a prior conviction counts as a serious drug offense under
the ACCA, courts apply a "categorical" approach that focuses on the elements of the
crime of conviction, rather than the facts underlying the conviction. Mathis v. United
States, 136 S. Ct. 2243, 2248 (2019). If the elements of the crime of conviction reach more
broadly than the definition of a "serious drug offense" under the ACCA—in other
words, if it is possible to violate the underlying statute without committing a "serious
drug offense" within the meaning of the ACCA—then the conviction cannot serve as a
predicate offense under the ACCA. United States v. Williams, 931 F.3d 570,575 (7th Cir.
2019); see also 18 U.S.C. § 924(e).
In interpreting the ACCA, the Supreme Court has recognized a "narrow range of
cases" in which courts may look beyond the statute of conviction to determine if it
qualifies as an ACCA predicate offense. Taylor v. United States, 495 U.S. 575,602 (1990).
If a statute is "divisible"—that is, if it identifies multiple crimes under one section or
heading—courts may apply a "modified categorical approach" and examine a limited
class of documents, such as indictments or plea agreements, to determine if the
defendant was convicted of a version of the crime that falls within the ACCA definition
of a "serious drug offense." Descamps, 570 U.S. at 257, 261-63.
Neville maintains that the list of substances criminalized in 720 ILCS § 570/401(c)
sweeps more broadly than the list of substances contemplated by 18 U.S.C. § 924(e).
Illinois's § 570/401 (c) outlaws, among other things, possession with intent to deliver
certain controlled substances and lists the substances it criminalizes in individual
subsections. The federal § 924(e)(ii) defines a "serious drug offense" as a drug
conviction under state law, drawing its list of criminalized substances from the
Controlled Substances Act, 21 U.S.C. § 802. Indeed, we recently determined that 720
ILCS § 570/402(c)—a provision similar to § 570/401(c) that criminalizes drug possession
and uses subsections to list a comparable set of substances—is not divisible and
includes substances that are not controlled substances under federal law. NajeraRodriguez v. Barr, 926 F.3d 343,348,356 (7th Cir. 2019). As a result, we concluded that a
conviction under 720 ILCS § 570/402(c) cannot serve as a "felony drug offense" for

No. 18-3431

Page 4

federal sentencing purposes. See United States v. De La Torre, 940 F.3d 938,949 (7th Cir.
2019).
Even if Neville's argument were not barred by his waiver in the district court, it
would be foreclosed by the circumstances of his guilty plea. Unlike the defendant in
Najera-Rodrignez, he pleaded guilty to violating two specific subsections of the Illinois
Controlled Substances Act, 720ILCS § 570/401 (c)(1) and § 570/401 (c)(2), rather than
§ 570/401(c) generally. These two subsections criminalize possession of heroin and
cocaine. These provisions are divisible so that the modified categorical approach can
apply. There is thus no ambiguity about which substances are implicated by Neville's
convictions and whether those substances are also criminalized under federal law.
Accordingly, we can determine that his convictions count as "serious drug offenses"
under federal law without needing to look beyond the statutory text. We add that we
have previously rejected a categorical challenge to the use of § 570/401 as a predicate
drug offense under the Guidelines, albeit on different grounds. See United States v.
Redden, 875 F.3d 374,375 (7th Cir. 2017).1
Finally, we agree with counsel that it would be frivolous to challenge the
reasonableness of Neville's sentence, which is two months below the low end of his
correctly calculated guideline range of 188 to 235 months. Where, as here, tine sentence
is below the guideline range, we presume that it is reasonable. See Piffl v. United States,
551 U.S. 338, 347-56 (2007); United States v. Griffith, 712 F.3d 1006,1012 (7th Cir. 2013).
Counsel cannot identify any grounds for overcoming that presumption, nor can we. See
United States v. Melendez, 819 F.3d 1006,1014 (7th Cir. 2016). The district court properly
considered each relevant 18 U.S.C § 3553(a) sentencing factor, specifically discussing
Neville's personal background (placing special emphasis on Inis youth, remorse, and
difficult upbringing, but weighing them against his mental illness and substance abuse),
his criminal history' (noting that he had a "chronic" criminal history beginning at age
thirteen and committed the current offense nine months after being released on parole),
and the need to protect the public and adequately deter future criminal conduct
(concluding diat a sentence below the guideline range was appropriate but determining
In a supplement to his Circuit Rule 51 statement filed on November S, 2019, Neville cited
Najera-Rodriguez, asserted that his 2014 conviction in DeKalb County was for a violation of § 570/402(c),
and concluded that Najera-Rodrignez therefore bars reliance on that conviction for enhancing his sentence.
This argument is not correct. Paragraph 64 of the Presentence Report shows that the DeKalb County
conviction was for violating § 570/401 (c)(2), not § 402(c). Section 401(c)(2) is divisible in a way that
§ 402(c) is not. The DeKalb County conviction under § 401(c)(2) was properly counted as a serious drug
offense.

*

i

t

<

1*

- A

No. 18-3431

Page 5

that a term of supervised release following imprisonment would benefit both Neville
and the community).
We GRANT counsel's motion to withdraw and DISMISS the appeal.

i

i

\

5

\

ii
i

:

i

I

Ttnttefr jiiafas Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
January 24, 2020
Before
WILLIAM J. BAUER, Circuit Judge
MICHAEL S. KANNE, Circuit judge
DAVID F. HAMILTON, Circuit Judge
No. 18-3431
UNITED STATES OF AMERICA,
Plaintiff-Appellee,

v.
DERRICK T. NEVILLE, JR.,
Defendant-Appellant.

Appeal from the United States District
Court for the Northern District of Illinois,
Western Division.
No. 3:17-cr-50032-l
Frederick J. Kapala,
Judge.

ORDER
On consideration of defendant Derrick T. Neville, Jr/s petition for panel
rehearing or a suggestion for a rehearing en banc, filed December 19, 2019, no judge in
active service has requested a vote on the petition for rehearing en banc, and all judges
on the original panel have voted to deny the petition for rehearing.
Accordingly, the petition for panel rehearing or a suggestion for a rehearing en
banc filed by defendant Derrick T. Neville, Jr. is DENIED.

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Office of the Gerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

Everett McKinley DirkscnUmt«I5talesCourthoiisc
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

ORDER
January 8,2020
By the Court:
UNITED STATES OF AMERICA,
Plaintiff - Appellee
No. 18-3431

v.
DERRICK T. NEVILLE, JR.,
Defendant - Appellant
i it. _

r.

District Court No: 3:17-cr-50032-l
Northern District of Illinois, Western Division
District Judge Frederick J. Kapala

The January 7, 2020, order denying the appellant's petition for panel rehearing or a
suggestion for a rehearing en banc is WITHDRAWN as improvidently issued. The
petition remains under consideration by the court.

form name: c7_Order_BTC{form ID: 178)

3Kmteh j^faka Court of Appeak
For the Seventh Circuit
Chicago, Illinois 60604
January 7,2020
Before
WILLIAM J. BAUER, Circuit Judge
MICHAEL S. KANNE, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
No. 18-3431
UNITED STATES OF AMERICA,
Plaintiff-Appellee,

v.
DERRICK T. NEVILLE, JR.,
Defendant-Appellant.

Appeal from the United States District
Court for the Northern District of Illinois,
Western Division.
No. 3:17-cr-50032-l
Frederick J. Kapala,

Judge.
ORDER

On consideration of defendant Derrick T. Neville, Jr/s petition for panel
rehearing or a suggestion for a rehearing en banc, filed December 19, 2019, no judge in
active service has requested a vote on the petition for rehearing en banc, and all judges
on the original panel have voted to deny the petition for rehearing.
Accordingly, the petition for panel rehearing or a suggestion for a rehearing en
banc filed by defendant Derrick T. Neville, Jr. is DENIED.

I

t

N
07
00

5I
to

a
ca
»-»
on
CZJ

.

m THE CIRCUIT COURT FOR THE TWENTY THIRD JUDICIAL CIRCUIT
DEKALB COUNTY, ILLINOIS
l«ef,339
Case No.
PEOPLE OF THE STATE OF ILLINOIS
-V S-

Q^rricli' h/frn Up

Defendant

Plaintiff
I Judge

sr^chi/T~

U/t

PItf Any.

P&/M

Deft. Atty.

fjfiC'

Cf. Reporter. ^
S. FixtsM

JUDGMENT ORDER
Illinois Department of Corrections

Attest

IN OPEN COURT

OCT 1 6 20K
THE COURT being a^jg^^^asgiisflsDaKaib County, Illinois
IT IS HEREBY ORDERED that the Defendant
named herein is guilty of the crime set forth in this cose: and,

Crime for which Defendant was convicted
j)ULA*jt5t\ JsfS&xnjJ VU.-fh tAjTo*}

To

CoSTtelle^

Chapter and Section.

)Lc % ,<rW UnlfA fe)

1

Credit far time served:
J^DcKalb County Jail1 &2- dayfs)_______
[ ] To be determined by Sheriff
[ ] Other Credit’_

IT IS FURTHER ORDERED that the Defendant be
given credit for such time served as determined by the Court;
and, that the Defendant pays all costs of these proceedings.

monthfs)

NOW, THEREFORE, it is Ordered, Adjudged and
Decreed that the Defendant be sentenced to the Illinois
Department of Corrections for the crime he/she stands
convicted, for a term of days, months, or years as set forth
herein; and,

(lype/ptace/agcncy)
month (s)

_j____________ day(s)_

Costs of these proceedings*
Fine.
$
Circuit Cleri’s Costs.
s

FURTHER, that the Defendant be taken from the bar
of this Court to the DeKalb County Jail, and from there, by
the Sheriff of DeKalb County, to the nearest reception and
classification center of the Illinois Department of Corrections
and the Illinois Department of Cotrectious is hereby required
and commanded to take the body Of the defendant and confine
him/her in a Penitentiary, according to law, from and after
delivery thereof until discharged according to law, provided
such term of imprisonment shall be riot less than nor more
than the term of days;, months, or years for which the
Defendant stands convicted.

S

Restitution
Dreg Fine
Lab Fee.
Trauma Fee’
Drug Assessment Fee.
VCVAFme

5

S
S
S

s

Total Due.;
Payment Status’____
Sentence of die Court.

s-7
monthsfs)

day(s)

__years (s)

(if applicable)
Date:
[ ] Consecutive with case numbers:

[ ] Concurrent

ur/JctM
/!)$&

-

Enter:
p tTcJM

YeUow-Stsle*s Attorney
Whrtc-Cletk
Judgment Ortfer CnmuuI\CROOOOI7.CRl
Updated 0J/1Q/20I4

PmJc-Dcrcndnm’s Attorney

Ccx/tvY J.TfS.

Goldeorod-Defeadoit

JBmlPx

Attested t^th

Otefk ofthe Cltcylt Court

z-' ^SSSS.'SsHf)

ro

cn
u

M
-O
CD
CO
CO
Ck.

to

IN THE CIRCUIT COURT OF THE TWENTY-THIRD JUDICIAL CIRCUIT
DEKALB COUNTY, ILLINOIS
)

PEOPLE OF THE STATE OF ILLINOIS,
Plaintiffs),

)
)
)
)
)

VS.

i)or/"•*!<

lb (7/Defendant

J

CASE NO.:

^

COUNTS

~r

__________

(You must complete a separate form for each case number.)

FILED
wa?tiic!iv*T

"I/

)

i

OCT \ 6 ^

GUILTY PLEA AND JURY B^fe^DAVAIVER
COMES NOW said Defendant in the above-captioned cause, and having been fully advised of his/her right
to plead not guilty, to have a jury trial or a trial before a judge, to be proved guilty beyond a reasonable doubt, to
confront the witnesses against him, and fully understand that upon a plea of guilty that there will be no trial of any
kind does hereby knowingly and freely
waive his/her right to trial by jury and consents to a trial by the Court without a jury
Said defendant further enters a plea of
guilty to the charges contained in the within cause.

An individual convicted of domestic battery may be subject to federal criminal penalties for
possessing, transporting, shipping, or receiving any firearm or ammunition in violation of the federal Gun Control
Act of 1968 (18 U.S.C. 922(g) (8) and (9)).

lO--- (V
Defendant
efore me this
Subscribed and sworn
)Lfh dayjof? CicXpbo
-20iH.

Cl?rdV'HC|r0“MCourt

Judgi
Gtuliy Hlea St tvtv Oemand Waiva'C (<000027 CRl
Rev 1179/2012*

sy4

SSSSL
Clreurt CierV/y “

32?
!<L~-

CC-30

In (he Circuit Court of the Seventeenth Judsual Circuit
Winnehaga County, Statu of Illinois

F IWEfD
Data’

People of thtS Mic, of Illinois
y

o, ty, dS-g

_**&***/!;/

Plaintiff

PROBATION ORDER

Ocfcndani

c

Clark of mo Cucwoouit
^fyj Danuhfc
Vi/imabuKi/Cotmiy. <L ^

Case Nets),

T>

r
I

to

o\

w

o
o
o
N>
09
i/i

is*

YOU 1U\ VC BEEN GRANTED THE PRIVILEGE OF PROBATION IF YOU FAILTOOBEYTHE FOLLOWING CONDITIONS YOUR PROBATION,
MAYUEMODIFICOOH REVOKED IFREVOKED YOU CAN BE RESENTENCEOONTHEOFPENSE FOR WHICH lOURCCCIYEDPROTl/VlION^
Tht atx»e named defendant having been convicted or the offenseMduicniiied below tr hereby senicnccd lo probation aubjut lo the terms and timdinon^
suitd btlow provided that any violation of sold conditions may result in iheohove named defendant being uibjeet to tin. Admiiusirauvi. Sanctums Prograftr'
fit the Pmb uionOupartmcnt, or modification or revocation or thy disposition
^
(Afovtlzp /-<0***TClan^Z<gftIonvW/orClass__rntsdenKOnOr.
for opened of
/ Cl
OFFENSEfSJ.
fDOTTSHAuT
TllC CONDI l IONS OF SENTENCE ARE THAT DEFEN
H Nm vivlote anj eniruml statute or ordinance of
O Serve_______ day* Periodic Imptinrameni in the
BJJAY THE 1011 OWING
anyjuntdtiuaa
WinnebagoCoumyJnil end abide byetl rotes thereofand
}S-eounCons Hnea
report m compliance with ibe Penodit ImpnionmeM
/ j and/or Penalties
B Dcfsniinl shltl nporl immediately to Ihe
.Order
//I* ,JL. t [)tiul
VtPmbjIron Pcelper monihl
Adutl Probation Department located on the Itnl
wr
I Set)
.
''v/ J
-rifiLUi/A Anatyai-, I ec
fittor nf the SViomtuRo Count) Caurlhouw
Ac Serve I rl\ -* ■ dayvioihjiWronebago GeuoTy ^SEfset Value I we
furthermore Dcftodanl shall report monthly or os /fait with , / ft 0 tfJBryy that time stayed '“’^OTSeyg Asscsrmcnt Fee
often re (he probation offiuei may direct
coaiingenluponfultramplianr£orenynroorprobilton
Aoal)Si> 1 eo

,-----■/ CO

ft

e^QD2>&0

HNoiiraueavonylineiiim or dangerous weapons
,
® Nol leave ibe State cf Eltnots without consent of
rhecourt aadeisinjadiontcnotice to MdoSloining
tsrmcn pemusiionfroin preboiion o/lleer
. , ,
Srunirt probation officer to sun the defendants
the (kflndint s home or elsewhere es requested by
the probation offlur
S Inform the Cleifc ol the Circuit Court and the
pmbtiiun ulfite of i change of oddrers within 24
hours
_
,,
S If m olfente referenced in ihts older « n felony
suhmna blood aniVor tissue ond/orraliva specimen
ivulnn 4.5 days forjenelie marker luting pursuant lo
710 ILCS 5/J-4 ] oml pay an onniyni fee of
STOOUO

invutiaCIT<il1 faf lime
1
□ Day fordey credit does not apply (739 ILCS 130/3)
■
pf tffip
XLCS 3/110-Id receive Si OO/day
i
c**/by davi served lowardr tinea elloweblc
a~\/'‘s7!S
UJ)
jtrT with ond soiBfactonly complete any
ismuftl liteimtnl education and/or counseling as
directed by Ibe probation office including bui nol
limned lo participauon in rennets offered et (he KIC
AtioS'snretcaiesofmformetioncenunliniHodiKlolvro
of oil MKJiment (reaimeM education and ccunteling
infoimaiion to the court ond probatten
□ Allend Ihe Victim Impact Panel
PM orasdireeled
or
on
by the Coun ond/or Piotanon Otlice

□ Hnivler os a set offender and comply with Set
01 fender Rcgislratien Acl 130 ILCS ISO/t el icq

O Shall uork or pursue a course of uudy or vocational
(raining

Vfloi eonsnme ofeohol or illicit diugt uoleos
^piuu\bi.dh) jphriiuJn

O Perform______ hours of community/piblic service
at limes and places designated by the Probation Office
Such hours to be ctmipfeltd by
. _

_j3jubmit lo randein unrolysn ond/or blood lest
•^and hit htralhalyier lest ol this direeiion of the
preltjiton deponminl or any egeney referred lo for
Luunseling and vlull sign releases or information
duelmingihe lesi resutii (a the court and probation
OUndugontedicallcslingfnrreauallylrtuuDiiulble
due lies pursuinl lo 730 ILCS S/S 3«3(g) ond that!
appear Ind obtain die resulis m court on
The results ore lobe
torvyinlediOdieuoienemgjudge

□ Surrender all nghts in Ihe weapon pursuant io 720
1LCS5/2S d(b)
R Nol have ony eontcel direcity or indirectly with ihe

S

itmnti

•''OSuia’sAlluini.y s Trial Fee
S
<525 a___ dijNCfiuuil mil)
□ Public Defender he
5
□CeimesiopperrComnbulion
S
□ Victim Impact Panel he
S IP ou
s iixmn
□ Seauel Asuult I tue
D OomeSlie Violence hue
s itxiou
[OFamilv ONonPamilv]
; mun
□ OomeslicHaiietyFini
□ Viol ornn Order ul Pirn l mi
i 2U 00
OsTO/HIVTesiing
1 uihhi
p Kcitilution’fas diretied)

□ Bund (ram lhit/lhesccasc<sl iitduu e>
in the inieunl uf S
to be applied lo fines com and reililulinn
O Immediaiely pay in full el the CUAuf (he Circuit
Cburl foered in this building
0 Immediately report toihi Tin tneitlCninpliineeUnii
loeoied in this buildiog and emcr min a payment
egieemenl oppror cd by ibe Coun
D Report to Ihe Clerk Of Ihu Cireuil Court tin. Hid in
ibis building bufuie ■) 01) p ni on the mil business
i yaiay ofier rclcaie from eusiudy lo pay in full
jp Report to (he Financial Conipltv.ee Unit lueateo in
Mbit building helure 4 (HI p m onihenoi
husineas day after retrase Irum cuslvdy lu enter imu
a poymenl agreement approud by the Ceuit
Any payment ogrccincnl approved by the Court iliall be
meuiporalcdioipilusDrdcrUiuJ^igitloDtJfnpfm/red

.

QBe moniiered by drag court
sy ./

y^^khitL/aSSLsC ^TTTTn-r^rAM

SWwMFs
OKDLHl-DMA.
AWAW«tTn

O Pry retrnvlion* in the umuunl of S
____________________ ■ lo be paid in full by
TYj*
1
•Re'lHunun is payable si stole lo be determined ty the Financial Compliance Unit 'Reiululion payments made through Ihe Winnebago Coi

nice

*••••»

CireiniCleiVlsIOKndrcsirtulionlD _____________________________________ -

Judge*.

GL^y iuyt?t

DefendantAddri
Def<ndanCsSigna|u

Entered

jn

Lynch. I

/7 7)y

XI

Cn

STATE OF ILLINOIS

PSLED

|

IN THE CIRCUIT COURT OF THE J7TH JUDICIAL dft&Wp£j-J*Z.L OP™
COUNTY OF WINNEBAGO
°
Cfork oilH^Cio Ill Cblut "" 0
H
By.
-r-*y
THE PEOPLE OF THE STATE OF ILLINOIS )
Winn; 'agoCstny, L
ra>
)
PLAINTIFF
ra
)
NO 08CF434
)
Q
IV
vs
)
s
DERRICK NEVILLE
DOB 10/31/90
DEFENDANT

)
)
)
)

IV

99
\
IV

O

P

co

BILL OF INDICTMENT
The Grand Jury charges
COUNTI
That on or about the 5th day of February, 2008, m the County of Winnebago,
State of Illinois, DERRICK NEVILLE committed the offense of VIOLATION OF
THE CONTROLLED SUBSTANCES ACT in that he, while being within 1000
feet of the real property comprising a church, namely Church of Christ located at
112 S. Henrietta, Rockford, Illinois, knowingly and unlawfully possessed with the
intent to deliver, in violation of 720ILCS 570/401(c)(l), 1 gram or more but less
than 15 grams of a substance containing heroin, a controlled substance,-in violation
i

of 720 ILCS 5707407(b)(1) (Class X Felony, 6-30 years/Max. Fine $500,000)

.■StPSSS!£S'£SXSSii
the original on tile In my oHIce.

A TRIJE BILL
Clerk ol the Clroutt Court -------- winn&agffQounty, Illinois poreman

By.

§
Z
6
§
fc!

00
OJ

